TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Additional Actions Are Needed to Protect
                   Taxpayers’ Rights and the Government’s
                   Interest During Bankruptcy Proceedings



                                      February 20, 2009

                            Reference Number: 2009-30-036




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               February 20, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Additional Actions Are Needed to Protect
                               Taxpayers’ Rights and the Government’s Interest During Bankruptcy
                               Proceedings (Audit # 200630025)

 This report presents the results of our review to evaluate the controls used in the Internal
 Revenue Service (IRS) Centralized Insolvency Operation function to ensure that taxpayers’
 rights and the Government’s interest are protected during bankruptcy proceedings. We
 conducted this review as part of our Fiscal Year 2007 Annual Audit Plan coverage.

 Impact on the Taxpayer
 The United States Bankruptcy Code’s automatic stay 1 provision is designed to protect taxpayers
 from collection activities while they are in bankruptcy. Nonetheless, an estimated 495 potential
 taxpayer rights violations occurred between October 2005 and December 2007 because the IRS
 filed liens 2 while taxpayers were in bankruptcy. There were also 27,838 taxpayers at risk of
 having their rights violated because a bankruptcy freeze code was not posted to their accounts in
 a timely manner. The bankruptcy freeze code designates that the account is in bankruptcy status.
 The code is an important control component for protecting taxpayer rights during bankruptcy
 proceedings by helping the IRS and its Centralized Insolvency Operation function identify and
 address potential automatic stay violations.




 1
   An automatic stay is a provision under the United States Bankruptcy Code prohibiting creditors from beginning or
 continuing proceedings for collecting owed amounts from individuals who filed for bankruptcy.
 2
   A claim on a taxpayer’s assets for the amount of unpaid tax.
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings




Synopsis
In October 2005, the IRS consolidated many of its bankruptcy processing activities performed
throughout the country to a new unit called the Centralized Insolvency Operation function
located at the IRS Philadelphia Campus. 3 By consolidating work, the IRS envisioned it would
reduce operation costs, increase efficiency, and improve customer service.
The IRS process for ensuring that taxpayers’ rights and the Government’s interest are protected
during bankruptcy proceedings relies heavily upon its automated systems and the information
within these systems. Bankruptcy cases are controlled and processed by the IRS on the
Automated Insolvency System. The Automated Insolvency System interfaces with the IRS
Master File. 4 Within the Master File, the IRS records various bankruptcy actions, such as new
filings, payments, and discharges, through designated status and transaction codes.
Consequently, recording the status and transaction codes in each taxpayer’s Master File account
accurately and in a timely manner is critical for preventing violations of the Bankruptcy Code
automatic stay provision and resuming collection actions upon the discharge or dismissal of a
bankruptcy case in a timely manner.
Controls need to be strengthened in two areas during the opening and closing of bankruptcy
cases to ensure that taxpayers’ rights and the Government’s interests are protected during
bankruptcy proceedings. First, the Centralized Insolvency Operation function could take better
advantage of reports generated from IRS automated systems to identify and resolve potential stay
violations. During our audit, we identified cases in which taxpayers’ rights were violated
because the IRS filed liens on 29 taxpayers’ accounts while the taxpayers were in bankruptcy.
Based on our statistical sample results, we estimated that 495 lien stay violations occurred
between October 2005 and December 2007.
We also identified 27,838 taxpayers’ accounts that were at risk of having their rights violated
because a bankruptcy freeze code was not posted to their accounts in a timely manner. One
factor that might have contributed to delays in posting freeze codes on taxpayers’ accounts is the
untimely resolution of mismatches on the Potentially Invalid Taxpayer Identification Number
report. This report is generated daily and identifies cases where the bankruptcy freeze code
failed to post to the taxpayer’s account because Master File information (e.g., identification
numbers and names) did not match the Bankruptcy Court data received and input to the
Automated Insolvency System. Resolving Potentially Invalid Taxpayer Identification Number
report mismatches is critical because the freeze code will never post to the Master File account
until the mismatch is manually reviewed and resolved.

3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                                   2
               Additional Actions Are Needed to Protect Taxpayers’ Rights and
                 the Government’s Interest During Bankruptcy Proceedings



The second area where improvements are necessary involved holding managers more
accountable for initiating bankruptcy closing actions in a timely manner. Failure to initiate
bankruptcy closing actions in a timely manner affects the IRS’ ability to collect taxes and also
can place undue hardship and burden on taxpayers by withholding refunds. As of June 28, 2008,
we identified 2,442 taxpayers’ accounts in which closing actions had not been initiated within
30 calendar days of the Bankruptcy Courts’ closing determination.

Recommendations
The Operation Manager, Centralized Insolvency Operation, should 1) develop and implement
guidance for the identification and correction of potential lien stay violations when establishing
bankruptcy cases on the Automated Insolvency System, 2) improve the Centralized Insolvency
Operation function Weekly Inventory Reports (Open and Closures) to include aging information
on taxpayers accounts, 3) enhance efforts to resolve freeze codes that do not post to accounts by
ensuring that managers consistently work Potentially Invalid Taxpayer Identification Number
reports, and 4) evaluate the frequency, consistency, and effectiveness of team manager reviews
of the quality and timeliness of bankruptcy closing actions in future operational reviews.

Response
IRS management agreed with all of the recommendations. The IRS has taken action to identify
bankruptcy cases where liens were filed after the bankruptcy petition date and will take
immediate corrective action if any violations have occurred. The Automated Insolvency System
will be programmed to generate a new report that identifies liens posted to accounts after
taxpayers have filed for bankruptcy. Existing Weekly Inventory Reports will be modified and a
new report has been developed to identify cases that require closing actions. New procedures for
working the Potentially Invalid Taxpayer Identification Number reports have been developed
and managers are reviewing completed reports to ensure that actions are accurate and taken in a
timely manner. In addition, other processes have been put in place to ensure that bankruptcy
cases are closed in a timely manner including the verification of team managers reviews during
operational reviews. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                 3
                     Additional Actions Are Needed to Protect Taxpayers’ Rights and
                       the Government’s Interest During Bankruptcy Proceedings




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Controls Need to Be Strengthened During the Opening and
          Closing of Bankruptcy Cases .......................................................................Page 5
                    Recommendations 1 through 3:.........................................Page 10

                    Recommendation 4:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 19
         Additional Actions Are Needed to Protect Taxpayers’ Rights and
           the Government’s Interest During Bankruptcy Proceedings




                         Abbreviations

AIS                Automated Insolvency System
BAPCPA             Bankruptcy Abuse Prevention and Consumer Protection Act
FY                 Fiscal Year
IRM                Internal Revenue Manual
IRS                Internal Revenue Service
PIT                Potentially Invalid Taxpayer Identification Number
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings




                                            Background

Bankruptcy allows individual and business debtors who can no longer pay their creditors to seek
relief by resolving debts through liquidation, reorganization, or a repayment plan. The United
States Bankruptcy Court (Court) provides protection to debtors and orderly distribution to
creditors through Title 11 of the United States Code (Bankruptcy Code). The type of bankruptcy
case is generally classified by the applicable chapter within the Bankruptcy Code. The most
common bankruptcy cases are filed under Chapter 7, Chapter 11, and Chapter 13.1
The Bankruptcy Abuse Prevention and Consumer Protection Act of 2005 (BAPCPA) 2 made it
more difficult to declare bankruptcy by requiring debtors who wanted to file under Chapter 7 to
meet a means test of having income below a set amount after certain expenses. It also required
debt counseling and extended the repayment period for Chapter 13 bankruptcies from 3 years to
5 years. Because most BAPCPA provisions apply to cases filed on or after October 17, 2005,
some debtors rushed to file before changes occurred in the Bankruptcy Code causing a spike and
then a drop in Court filings.
While changes were being made to the Bankruptcy Code, the Internal Revenue Service (IRS)
was redesigning the Insolvency function to improve operations and equitable treatment of
taxpayers in bankruptcy. The redesign included centralization, standardization, and process
improvement. As of October 1, 2005, selected processing activities performed at field
insolvency locations throughout the country were consolidated at the Centralized Insolvency
Operation function in the IRS Philadelphia Campus. 3 These activities included 1) adding,
updating, and closing bankruptcy cases on the IRS’ computer system, 2) resolving upfront
processing issues such as potentially invalid Taxpayer Identification Numbers, 4 3) processing
bankruptcy payments for taxpayer debits, and 4) identifying collection activity that could violate
Bankruptcy Code provisions.
By consolidating selected work, the IRS envisioned it could reduce operating costs, increase
efficiency, and improve customer service. The more complex and location-specific work would
still be performed by field insolvency offices throughout the country. Organizationally, the
Centralized Insolvency Operation function is divided into 11 technical and 4 clerical teams each

1
  Chapter 7 provides for liquidation – the sale of property and distribution of proceeds. Chapter 11 provides for
reorganization – a plan usually involving a corporation or partnership to keep the business active while paying
creditors over time. Chapter 13 provides for a repayment plan – a plan for possible adjustment of debt and
installment payments over time, usually 3 to 5 years.
2
  109 P.L. 8, 119 Stat. 23.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  A nine-digit number assigned to taxpayers for identification purposes.
                                                                                                           Page 1
                    Additional Actions Are Needed to Protect Taxpayers’ Rights and
                      the Government’s Interest During Bankruptcy Proceedings



with a manager and a staff of approximately 18 employees. The team managers report to one of
two department managers that report to the operation manager.
It is important to recognize that the IRS is not a creditor in every bankruptcy. However, 28 to
40 percent of the annual Court filings for bankruptcies since Fiscal Year (FY) 2001 have resulted
in the IRS establishing a bankruptcy case. In FY 2005, before the BAPCPA was fully
implemented, there were 1,782,643 Court filings and 501,743 IRS case receipts. Bankruptcies
declined after the BAPCPA with 801,269 Court filings and 290,780 IRS case receipts in
FY 2007. Although FY 2008 figures are not yet available, the number of taxpayers filing for
bankruptcies is expected to increase because of current economic conditions. Figure 1 provides
the number of bankruptcies by Court filings and IRS case receipts since FY 2001.
                            Figure 1: Number of Bankruptcies by Fiscal Year
                                for Court Filings and IRS Case Receipts
                                                                                                                             1,800
                                                                        1,783

                                     1,662                                                                                   1,600
                                                       1,619
                    1,548




                                                                                                                                     NUMBER OF BANKRUPTCIES (thousands)
                                                                                                                             1,400
   1,437

                                                                                                                             1,200


                                                                                         1,113
                                                                                                                             1,000



                                                                                                                             800
                                                                                                          801

                                                                                                                             600
                               615              604
              578
                                                                  496              502
                                                                                                                             400
                                                                                                    427

                                                                                                                       291   200



                                                                                                                             0
       2001             2002             2003              2004             2005             2006               2007
                                                      FISCAL YEAR
                        IRS CASE RECEIPTS                                 BANKRUPTCY COURT FILINGS


Source: The United States Bankruptcy Court web site and the IRS Collection Workload Indicators
(RPT SYM NO-5000-23) report.

The review was performed at the Centralized Insolvency Operation function in
Philadelphia, Pennsylvania, during the period February 2006 through September 2008. We
conducted this performance audit in accordance with generally accepted government auditing

                                                                                                                             Page 2
               Additional Actions Are Needed to Protect Taxpayers’ Rights and
                 the Government’s Interest During Bankruptcy Proceedings



standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings




                                      Results of Review

The IRS process for ensuring that taxpayers’ rights and the Government’s interest are protected
during bankruptcy proceedings relies heavily upon its automated systems and the information
within these systems. Bankruptcy cases are controlled and processed by the IRS on the
Automated Insolvency System (AIS). The AIS interfaces with the IRS Master File. 5 Within the
Master File, the IRS records various bankruptcy actions, such as new filings, payments, and
discharges, through designated status and transaction codes. Consequently, recording the status
and transaction codes in each taxpayer’s Master File account accurately and in a timely manner
is critical for preventing violations of the Bankruptcy Code automatic stay 6 provision and
resuming collection actions upon the discharge or dismissal of a bankruptcy case in a timely
manner.
Since standup, 7 Centralized Insolvency Operation function management has focused attention on
developing and implementing procedures to improve bankruptcy case management practices,
which in turn helps ensure that taxpayer rights and the Government’s interest are protected
during bankruptcy proceedings. For example, our testing of 127 bankruptcy trustee 8 payments
received by the Centralized Insolvency Operation function found that, except for a few instances
in its first year of operation, the related status and transactions codes were input in a timely
manner and were accurately reflected in tax accounts within the Master File. This is an
accomplishment since the Centralized Insolvency Operation function received on average over
16,000 payments per week for processing.
In addition, the Centralized Insolvency Operation function began implementing a quality review
process in FY 2008 that will ultimately evaluate several hundred bankruptcy cases each year and
assess the degree to which Centralized Insolvency Operation function personnel are complying
with procedures for opening, monitoring, and closing bankruptcy cases, including those designed
to protect taxpayers’ rights and the Government’s interest. Having such a review process in
place is consistent with the Government Accountability Office Standards for Internal Control in
the Federal Government, 9 which requires that control activities help ensure that management
directives to mitigate risks are followed. While the Centralized Insolvency Operation function


5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
6
  An automatic stay is a provision under the United States Bankruptcy Code prohibiting creditors from beginning or
continuing proceedings for collecting owed amounts from individuals who filed for bankruptcy.
7
  The standup process is defined as the establishment of a new organization with at least the minimum requirements
for operation.
8
  A trustee is an agent of the Court that distributes periodic payments from debtors to creditors.
9
  GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                           Page 4
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings



has focused attention on improving case management practices, we found that controls need to
be strengthened to help identify and prevent automatic stay provision violations and to hold
managers more accountable for initiating bankruptcy closing actions in a timely manner.

Controls Need to Be Strengthened During the Opening and Closing of
Bankruptcy Cases
For the IRS, the bankruptcy process begins when it receives notification from 1 of the
94 bankruptcy courts nationwide that a taxpayer filed for protection under a chapter of the
Bankruptcy Code. Once the Court notifies the IRS, employees in the Centralized Insolvency
Operation function are responsible for recording the bankruptcy information on the AIS. After
Centralized Insolvency Operation function employees record the information, the AIS
automatically verifies the accuracy of each taxpayer’s identifying information with the Master
File and establishes an open bankruptcy transaction code on their Master File account.
Commonly referred to as a bankruptcy freeze code, it designates that the account is in
bankruptcy status and is, consequently, an important control component for protecting taxpayer
rights during bankruptcy proceeding by helping the IRS identify and address potential automatic
stay provision violations. Establishing the bankruptcy freeze code on a taxpayer’s account
should occur within 5 workdays of the Court’s notification. Despite the important role the freeze
code has in protecting taxpayers’ rights, we found that it was not as effective as it could be.
We analyzed a statistical sample of 100 of 1,998 taxpayers 10 whose Master File account showed
the IRS filed a lien 11 against their property after they filed for bankruptcy between October 2005
and December 2007. Our analysis identified 29 taxpayers who had liens filed by the IRS
between October 2005 and December 2007 that were potential violations of the automatic stay
provision. Projecting our sample results, we estimated that 495 potential lien stay violations
occurred between October 2005 and December 2007. 12 In 16 of the 29 cases, the violations
occurred when cases were being established on the AIS. The remaining 13 of
29 violations occurred after the cases had been established on the AIS.
Admittedly, the estimated 495 lien stay violations is not large considering the IRS had
717,768 bankruptcy case receipts during FYs 2006 and 2007. However, it is important to
recognize that our analysis focused only on liens. Our analysis did not include the other
collection activities, such as levies, 13 payroll deductions, 14 automated direct debit (i.e., payments


10
   Stratified sample with stratum one includes 50 of 1,381 individual bankruptcy cases and stratum two includes
50 of 617 business bankruptcy cases.
11
   A claim on a taxpayer’s assets for the amount of unpaid tax.
12
   Estimate based on a 95 percent confidence level and a stratified sample precision of ± 8.35 percent. See
Appendix IV for additional details.
13
   A method used by the IRS to collect outstanding taxes from sources such as bank accounts and wages.
14
   Amount withheld by an employer from an employee’s earnings and sent to the IRS.
                                                                                                           Page 5
                 Additional Actions Are Needed to Protect Taxpayers’ Rights and
                   the Government’s Interest During Bankruptcy Proceedings



from taxpayers’ bank accounts) or installment agreements 15 that if not suspended during
bankruptcy could also result in stay provision violations. In FY 2000, 16 we reported that stay
provision violations were attributed to collection activities in 41 percent of the bankruptcy cases
reviewed. We believe it is important to recognize that even one stay violation can have
consequences for the IRS because it could have to pay significant monetary damages to the
taxpayer affected by the violation of up to $1,000,000.
Although IRS officials immediately withdrew the 29 liens, we identified additional steps that the
Centralized Insolvency Operation function could take to better protect taxpayers’ rights and the
Government’s interest during the opening and closing of bankruptcy cases. The Centralized
Insolvency Operation function could take better advantage of reports generated from IRS
systems to identify and resolve potential lien violations when bankruptcy cases are opened and
better ensure that the bankruptcy closing actions are initiated in a timely manner. In addition, the
IRS needs to follow through and implement the corrective action it committed to take in
response to our FY 2000 report recommendation. Our prior recommendation focused on
additional computer programming to identify and notify Insolvency function employees when
collection action has been taken on taxpayers in bankruptcy. Because the IRS remains
committed to upgrading the existing AIS at the time of our review, we are not making this
recommendation again.

The Centralized Insolvency Operation function could take better advantage of
reports generated from IRS automated systems to identify and resolve potential
stay violations
IRS automated systems generate several reports to assist the Centralized Insolvency Operation
function in identifying and resolving various problems related to bankruptcy case processing.
On a daily basis, the Centralized Insolvency Operation function receives paper and electronic
bankruptcy notices from the Courts that are used to establish bankruptcy cases on the AIS. The
Potentially Invalid Taxpayer Identification Number (PIT) report is generated daily and identifies
cases in which the bankruptcy freeze code failed to post to the taxpayers account because Master
File information (e.g., identification numbers and names) did not match the Court data received
and input to the AIS. In addition to the PIT reports, additional reports are systemically generated
to assist the Centralized Insolvency Operation function in identifying potential stay provision
violations. If used effectively, these reports provide a critical control to help the Centralized
Insolvency Operation function identify and address stay provision violations by ensuring that
bankruptcy freeze codes post to taxpayers’ accounts and collection activities are suspended.
The Internal Revenue Manual (IRM) does not require Centralized Insolvency Operation function
personnel to identify and resolve potential lien stay provision violations when working weekly

15
 An arrangement where the IRS allows a taxpayer to pay a liability over time.
16
 The Internal Revenue Service Needs to Better Address Bankruptcy Automatic Stay Violations (Reference
Number 2000-30-162, dated September 2000).
                                                                                                        Page 6
                    Additional Actions Are Needed to Protect Taxpayers’ Rights and
                      the Government’s Interest During Bankruptcy Proceedings



reports that identify taxpayers who were in collection status prior to filing for bankruptcy with
the Courts. The IRM does, however, provide specific instructions for identifying and resolving
other types of potential stay violations when opening bankruptcy cases. For example, the IRM
instructs Centralized Insolvency Operation function employees on how to identify and initiate
actions to suspend collection activities when levies exist on taxpayers’ accounts.
Besides enhancing procedures for suspending collection activities when establishing new cases
on the AIS, Centralized Insolvency Operation function managers need to ensure that bankruptcy
freeze codes post to Master File accounts in a timely manner. Despite the requirement to
establish the bankruptcy freeze code on taxpayers’ accounts within 5 workdays of the Court’s
bankruptcy notification, the Centralized Insolvency Operation function Weekly Open Inventory
Report showed that it did not meet this requirement for 27,838 of 345,429 taxpayers during the
period October 1, 2005, through August 31, 2008. 17 We were unable to precisely quantify the
extent to which Centralized Insolvency Operation function managers might have contributed to
the overall number of delayed postings by not taking action to resolve potential problems. One
factor that might have contributed to delays in posting freeze codes on taxpayers’ accounts is the
untimely resolution of mismatches on the PIT reports. Resolving PIT mismatches is critical
because the freeze code will never post to the Master File account until the mismatch is manually
reviewed and resolved. In our FY 2000 report, we identified problems with managers not
ensuring that PIT reports were properly worked and recommended that actions be taken to
correct this condition. We were unable to determine how many of the 27,838 cases were delayed
due to PIT report mismatches because the reports are not retained more than a month.
In addition, we found a shortcoming in the Weekly Open Inventory Report because it does not
provide aging information, meaning that the number of days to establish the freeze code on
accounts is not tracked. This design flaw in the report makes it difficult to obtain a complete
picture on the extent of the possible problem and for managers to identify and prioritize the
accounts most in need of resolution (i.e., taxpayers with the greatest risk of incurring a stay
provision violation because they have been in bankruptcy status for an extended period of time
and a freeze code has yet to post to their accounts). We also believe that aging accounts would
be more in line with the Government Accountability Office Standards for Internal Control in the
Federal Government, which requires that control activities help ensure that management’s
directives to mitigate risks are carried out.

Centralized Insolvency Operation function managers need to be held more
accountable for initiating bankruptcy closing actions in a timely manner
The amount of bankruptcy related tax liabilities including penalties and interest has increased
from $2.45 billion in FY 2003 to $3.77 billion in FY 2007. Those in the debt collection
business, like the IRS, recognize that the probability of collecting a delinquent account will


17
     This excludes periods when IRS computer systems are not available due to annual maintenance.
                                                                                                    Page 7
                   Additional Actions Are Needed to Protect Taxpayers’ Rights and
                     the Government’s Interest During Bankruptcy Proceedings



decrease as the account ages. Consequently, once a person or business is dismissed or
discharged from bankruptcy owing taxes, the IRS strives to resume the process of collecting the
taxes owed. The first step in this process is to initiate bankruptcy closing actions within
30 calendar days of the Bankruptcy Court’s dismissal or discharge notification including
removing the bankruptcy freeze codes from the taxpayers’ Master File account.
The failure to initiate bankruptcy closing actions in a timely manner not only affects the IRS’
ability to collect taxes, but can place undue hardship and burden on taxpayers by withholding
refunds. In FY 2003, 18 we conducted indepth reviews of bankruptcy cases and reported that
untimely bankruptcy closing actions resulted in the following:
     •   Delayed collection efforts on an estimated 660 accounts, including 45 taxpayers who
         owed around $942,000.
     •   Missed opportunity to collect on an estimated 60 accounts, including 4 taxpayers who
         owed $459,000 because the Collection Statute Expiration Date 19 expired while the
         account remained in bankruptcy status erroneously.
     •   Delayed issuance of refunds to as many as 1,041 taxpayers, including 8 taxpayers who
         were owed over $24,000.
The conditions cited from our earlier review occurred because unit managers and the employees
they supervised were either not using or not effectively using bankruptcy closure reports
generated from IRS automated systems and taking necessary actions to close cases appearing on
the reports. Although we did not review cases in this audit for these conditions, we did analyze
the Centralized Insolvency Operation function’s weekly inventory report on closures. Since
managerial reviews and documentation of such reviews are an important part of the Centralized
Insolvency Operation function’s overall quality control process, we also interviewed the
10 technical team managers responsible for closing actions to determine what reviews they
conduct to ensure that the employees they supervise initiate closing actions in a timely manner
on the cases assigned to their units.
As of June 28, 2008, of the 8,750 cases waiting to be closed, 2,442 (28 percent) had no closing
action initiated even though it had been 30 calendar days or more since the Bankruptcy Court
notified the IRS of the dismissal or discharge of the bankruptcy. As with the Weekly Open
Inventory Report, there is no additional information available on the Closure Inventory Report to
determine the age of the cases requiring closing actions. Figure 2 provides the Centralized
Insolvency Operation function’s closing inventory levels for FY 2008.


18
   Bankruptcy Closing Actions Do Not Always Protect the Federal Government’s Interests and Taxpayer Rights
(Reference Number 2003-30-083, dated March 2003).
19
   This is the last date the IRS can collect delinquent tax without filing a suit for judgment; it is usually 10 years
from the tax assessment date.
                                                                                                                  Page 8
                                 Additional Actions Ars Nssdsd to Protsct Taxpaysrs'Rights and
                                   ths Government's Interest During Bankruptcy Proceedings



                                     Figure 2: FY 2008 Inventory for Bankruptcy Court

                                          Discharge and Dismissal Notifications

           15,000 .__ _ _ _.•.._                        _                 .




           12,500 + - - - - - - - - - - - - - - f - - i - - - - - - - - - - - - - - - - - - - - - - - i



   ""
    ~
   ..9 10,000 + - - - - - - - - - - - - - 1 - + - - - - - - - - - - - - - - - - - - - - - - ;
   .,..,
    s
    ~      7,500   +-------------+--.... . - - - - - - - - - - - - - - - - - - - - - - !
    ~
   '0
    t
   l       5,000   r-----------I----i~~;;Ai~~                                                                ...~\------____:~~U
   z



               0
                   ....   ....    ....   ....    ....       ....   ....       00    00    00       00   00    00   00       00

                   ~      a       ~      ~       ~
                                                            ~      ~          ~     ~     ~
                                                                                                   ~    ~     ~    ~
                                                                                                                            ~
                   ~      ~       ~      s       ~          ;:;;   ~          c
                                                                                    S
                                                                                    c
                                                                                          0-

                                                                                          ~
                                                                                          c
                                                                                                   ~
                                                                                                   N
                                                                                                   c    ~     ~    ...'"c
                                                                                                                   ~
                                                                                                                            ...
                                                                                                                            c

                                                                                   Wt'E'k ending

                                                .......Less than 30 days since notification
                                                .....30 days or mcre since notification and closure initiated
                                                ~30 days or more since notificatioo and closure not Ulitiated

   Source: The Centrali':l.!d 111S01l"ellCy Opemtiollfullctioll:r 1I'eekl;v illl"elltor:v report titled 'AIS-Dish & Dislll 11l1'"
   ar ofthe ll'(!ek ending June 28, 2008.

 TIle managers of the 10 technical teams we intervie\ved stated that they have access to a weeldy
 listing called the "30-Da'v Cmu1 Closme Fol1O'v u " that identitIes all cases over 30 calendar
 davs. 20 (d)           .
1.-c:----,-:--------.."---....,,.-,:-----"""7"--,,--,---'~
                                                             \ve obtained recent listings fi:om 8 of
 the 10 teammanagen; and were able to confirm their reviews by inspecting notations made on
 the repo11s. We fOlUld this practice consistent with IR:M guidelines, \-vhich instruct team
 managers to check \vork at random for quality and timeliness. Ho\vever, we \vere lUlaNe to
 evaluate the fi'equency, consistency, or the etlectiveness of these reviews because the \-veekly
 listings containing the notations are not retained beyond 2 months.



20 TIlI:re is one Iist.ing for Qlapt.er 7 "no asset" cases and one listing for Chapt.er 13 cases assigned t.o the Centralized
Insolvency Operation fimdion.
                                                                                                                                  Page 9
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings



The primary control mechanism that holds team managers accountable for conducting and
documenting reviews over the work of the employees they supervise is the operational reviews
of second-level managers. According to the IRM, second-level managers are required to
perform an operational review of each subordinate manager at least once each year to assess
work process improvement opportunities as well as to identify procedural or systemic problems
that need to be addressed. Over a 2-year period, all operational reviews by department managers
were not completed. Moreover, we found limited documentation in some reviews on how
effectively bankruptcy closure reports, or other management reports, generated from IRS
automated systems were used to ensure the quality and timeliness of bankruptcy closing actions.

Recommendations
The Operation Manager, Centralized Insolvency Operation, should:
Recommendation 1: Develop and implement procedures for the identification and correction
of potential lien stay violations when establishing bankruptcy cases on the AIS.
        Management’s Response: IRS management agreed with this recommendation and
        has taken the following actions:
        •    On November 20, 2008, the Centralized Insolvency Operation function requested an
             Integrated Data Retrieval System 21 utility run to identify cases with open bankruptcy
             freezes and liens filed after the bankruptcy petition date. The Centralized Insolvency
             Operation function will review listing to determine if any violations occurred and, if
             so, take immediate correction action.
        •    A Work Request has been prepared to have the AIS programmed to generate a
             Litigation Transcript System report whenever Transaction Code 582 (lien indicator)
             posts after Transaction Code 520 (bankruptcy indicator).
Recommendation 2: Improve the Centralized Insolvency Operation function Weekly
Inventory Reports (Open and Closed) to include aging information on taxpayer accounts.
        Management’s Response: IRS management agreed with this recommendation. The
        Weekly Inventory Reports will be modified to include the received date of the oldest
        dismissal/discharge. A report has been developed to identify all cases in which a
        dismissal or discharge has been received and the case remains open more than 7 days.
        Technical teams are required to print and work the report weekly.
Recommendation 3: Enhance efforts to resolve freeze codes that do not post in a timely
manner to accounts by ensuring that managers consistently work PIT reports.


21
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 10
               Additional Actions Are Needed to Protect Taxpayers’ Rights and
                 the Government’s Interest During Bankruptcy Proceedings



       Management’s Response: IRS management agreed with this recommendation.
       Management has developed procedures for working the PIT reports, and department and
       team managers are reviewing completed PIT reports to ensure that actions are accurate
       and taken in a timely manner.
Recommendation 4: Evaluate the frequency, consistency, and effectiveness of team manager
reviews over the quality and timeliness of bankruptcy closing actions in future operational
reviews.
       Management’s Response: IRS management agreed with this recommendation. The
       Centralized Insolvency Operation function is utilizing the “Dismissed/Discharged” report
       that identifies all cases where the IRS has received a notice of dismissal or discharge that
       is more than 7 days old and closing action has not been taken. Technical teams are
       required to print and work the report weekly. During operational reviews, department
       managers will verify that team managers are reviewing the “Dismissed/Discharged”
       report. Management has also developed a process for matching closed records from the
       Court’s automated system (PACER) against open AIS cases. The PACER match will be
       used to identify closed cases in which the IRS did not receive a notice of dismissal or
       discharge.




                                                                                           Page 11
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall audit objective was to evaluate the controls used in the IRS Centralized Insolvency
Operation function to ensure that taxpayers’ rights and the Government’s interest are protected
during bankruptcy proceedings. To accomplish this objective, we:
I.   Determined whether controls were adequate to ensure that the Centralized Insolvency
     Operation function properly inputs new bankruptcy cases on the AIS 1 and bankruptcy freeze
     codes were established on tax accounts in a timely manner.
     A. Interviewed management and researched the IRM to determine Centralized Insolvency
        Operation function procedures for receiving bankruptcy notification, processing new
        cases on the AIS, and establishing bankruptcy freeze codes on tax accounts.
     B. Reviewed the Centralized Insolvency Operation function’s Weekly Open Inventory
        Reports for the period October 1, 2005, through August 31, 2008, to determine whether
        bankruptcy freeze codes were established in a timely manner.
II. Determined whether controls were adequate to ensure that the Centralized Insolvency
    Operation function assists in identifying, preventing, and correcting potential Bankruptcy
    Code automatic stay 2 provision violations.
     A. Interviewed management and researched the IRM to determine Centralized Insolvency
        Operation function procedures for identifying, preventing, and correcting potential stay
        provision violations.
     B. Obtained and analyzed computer extracted individual and business taxpayer account
        information from the Master File3 to identify tax liens 4 filed after the bankruptcy




1
  This computer system is used by the Centralized Insolvency Operation function and Insolvency field offices
nationwide to monitor and update the progression of bankruptcy cases.
2
  An automatic stay is a provision under the United States Bankruptcy Code prohibiting creditors from beginning or
continuing proceedings for collecting owed amounts from individuals who filed for bankruptcy.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  A claim on a taxpayer’s assets for the amount of unpaid tax.



                                                                                                         Page 12
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings



          petition date. 5 The analysis was limited to tax liens filed between October 2005 and
          December 2007, and the taxpayer was still in bankruptcy as of December 2007. 6
     C. Using information from Step II.B., reviewed a statistical sample of 50 individual and
        50 business taxpayers with tax liens filed after the bankruptcy petition dates to
        determine whether the automatic stay provision was violated. 7 We researched the AIS,
        the Integrated Data Retrieval System, 8 and the Automated Lien System. 9 We also
        discussed and confirmed the exception cases with IRS officials for possible causes and
        effects of tax liens filed in violation of the automatic stay provision. In addition, we
        estimated the number of potential stay provision violations. 10
III. Determined whether controls were adequate to ensure that the Centralized Insolvency
     Operation function properly processed trustee payments.
     A. Interviewed management, obtained statistical information, and researched the IRM to
        determine Centralized Insolvency Operation function procedures for processing trustee
        payments.
     B. Reviewed two judgmental samples 11 of trustee payments to determine whether the
        payments were posted to tax accounts accurately and in a timely manner. The first
        sample was 102 trustee payments received during the period January 2006 through
        September 2006. The second sample was 25 trustee payments received during
        February 2008. We discussed processing questions and case results with Centralized
        Insolvency Operation function officials.
IV. Determined whether controls were adequate to ensure that the Centralized Insolvency
    Operation function properly closed bankruptcy cases on the AIS and bankruptcy freeze
    codes were released on tax accounts in a timely manner.



5
  The date the bankruptcy document, also known as a petition, is filed with the Bankruptcy Court to initiate a
bankruptcy proceeding.
6
  Data validation included ensuring appropriate information was included in each field, the time period met our
requirements, and extracted data were compared to source data. We determined the computer extract was
sufficiently reliable for our use.
7
  The sample was randomly selected from a population of 1,381 individual and 617 business taxpayers.
8
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
9
  The IRS computer system that stores information for liens recorded, released, and withdrawn.
10
   Estimated calculation based on a 95 percent confidence level, a stratified error rate of 24.79 percent, and a
stratified sample precision of ± 8.35 percent. See Appendix IV for additional details.
11
   Judgmental sampling techniques were used to conserve time and resources due to difficulties with independently
determining the population and variance of the number of taxpayers within trustee payments. Trustee payment
vouchers are temporarily stored according to the 34 segregated Bankruptcy Court areas, and trustees may submit
1 payment per taxpayer or 1 bulk payment for multiple taxpayers.
                                                                                                         Page 13
           Additional Actions Are Needed to Protect Taxpayers’ Rights and
             the Government’s Interest During Bankruptcy Proceedings



A. Interviewed management, obtained inventory reports, and researched the IRM to
   determine Centralized Insolvency Operation function procedures for bankruptcy
   notification and case processing to close cases on the AIS and to release freeze codes on
   tax accounts.
B. Contacted Centralized Insolvency Operation function closing groups to determine the
   method used to identify and initiate closing actions for cases 30 calendar days or more
   past the date the IRS was notified by the Bankruptcy Court.
C. Obtained the operational reviews conducted by Centralized Insolvency Operation
   function department managers to determine whether the quality and timeliness of
   bankruptcy closing actions were included in the reviews.




                                                                                    Page 14
              Additional Actions Are Needed to Protect Taxpayers’ Rights and
                the Government’s Interest During Bankruptcy Proceedings



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa M. Stoy, Audit Manager
Aaron R. Foote, Senior Auditor
Alan D. Lund, Senior Auditor
Erlinda K. Foye, Auditor




                                                                                      Page 15
              Additional Actions Are Needed to Protect Taxpayers’ Rights and
                the Government’s Interest During Bankruptcy Proceedings



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Advisory, Insolvency and Quality, Small Business/Self-Employed Division
SE:S:C:AIQ
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Campus Compliance Operations, Philadelphia, Small Business/Self-Employed Division
SE:S:CCS:CCO:PHL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 16
                  Additional Actions Are Needed to Protect Taxpayers’ Rights and
                    the Government’s Interest During Bankruptcy Proceedings



                                                                                               Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 495 taxpayers for whom the IRS did not
    comply with the automatic stay 1 provision by filing tax liens 2 after the bankruptcy petition
    date 3 (see page 5).

Methodology Used to Measure the Reported Benefit:
We computer analyzed Master File 4 tax accounts to identify 1,381 individual and 617 business
taxpayers with active tax liens filed October 2005 through December 2007, and after the
bankruptcy petition date of an active bankruptcy. To determine if automatic stay provision
violations involving tax liens occurred, we selected a statistical sample of 50 individual and
50 business taxpayers and manually reviewed the AIS, the Integrated Data Retrieval System, 5
and the Automated Lien System. 6 This stratified sample determined that 9 individual and
20 business taxpayers had tax liens filed by the IRS in violation of the automatic stay provision.
These cases were discussed with IRS representatives, who agreed with our conclusions and had
the tax liens withdrawn. Our estimate of 495 potential taxpayer rights violations is based on the
statistical information below.




1
  An automatic stay is a provision under the United States Bankruptcy Code prohibiting creditors from beginning or
continuing proceedings for collecting owed amounts from individuals who filed for bankruptcy.
2
  A claim on a taxpayer’s assets for the amount of unpaid tax.
3
  The date the bankruptcy document, also known as a petition, is filed with the Bankruptcy Court to initiate a
bankruptcy proceeding.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
5
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
6
  The IRS computer system that stores information for liens recorded, released, and withdrawn.
                                                                                                         Page 17
            Additional Actions Are Needed to Protect Taxpayers’ Rights and
              the Government’s Interest During Bankruptcy Proceedings



                                                   Stratum 1       Stratum 2
               Stratified Attribute                                                  Total
                                                   Individual        Business
              Statistical Information                                             Taxpayers
                                                   Taxpayers       Taxpayers
Population                                            1,381            617           1,998
Population Percentage                                69.12%          30.88%        100.00%
Sample Cases Reviewed                                   50              50            100
Sample Cases with Exception                             9               20            29
Exception Rate                                       18.00%          40.00%         24.79%
Point Estimate                                       248.58           246.80        495.38
          Determining Lower and Upper Limit Estimates for 95 Percent Confidence Level
Stratum Finite Population Correction Factor         0.96379          0.91896         not applicable
Sample Variance                                     0.00301          0.00490         not applicable
Stratum Variance                                    0.00290          0.00450         not applicable
Total Variance                                     not applicable   not applicable     0.0018
Standard Deviation                                   5.39%            6.71%            4.26%
Precision for 95 Percent Confidence Level            10.56%           13.15%           8.35%
Lower Limit Estimate (rounded)                         103              166              328
Upper Limit Estimate (rounded)                         394              328              662




                                                                                                Page 18
   Additional Actions Are Needed to Protect Taxpayers’ Rights and
     the Government’s Interest During Bankruptcy Proceedings



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 19
Additional Actions Are Needed to Protect Taxpayers’ Rights and
  the Government’s Interest During Bankruptcy Proceedings




                                                        Page 20
Additional Actions Are Needed to Protect Taxpayers’ Rights and
  the Government’s Interest During Bankruptcy Proceedings




                                                        Page 21
Additional Actions Are Needed to Protect Taxpayers’ Rights and
  the Government’s Interest During Bankruptcy Proceedings




                                                        Page 22
